      DEPARTMENT OF HEALTH & HUMAN SERVICES                            Office of Inspector General

                                                                       Washington, D.C. 20201




March 24, 2010

TO:           Charlene Frizzera
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Joseph E. Vengrin/
              Deputy Inspector General for Audit Services


SUBJECT:      Review of Colorado’s Claims Associated With the Increased Federal Medical
              Assistance Percentage Under the American Recovery and Reinvestment Act
              of 2009 (A-07-09-02767)


Attached, for your information, is an advance copy of our final report on the review of
Colorado’s claims associated with the increased Federal medical assistance percentage under the
American Recovery and Reinvestment Act of 2009, P.L. No. 111-5. We will issue this report to
the Colorado Department of Health Care Policy and Financing within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at
(816) 426-3591 or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number
A-07-09-02767.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                         Office of Audit Services, Region VII
                                                                         601 East 12th Street, Room 0429
                                                                         Kansas City, MO 64106



March 31, 2010

Report Number: A-07-09-02767

Ms. Joan Henneberry
Executive Director
Colorado Department of Health Care Policy and Financing
1570 Grant Street
Denver, CO 80203-1818

Dear Ms. Henneberry:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Colorado’s Claims Associated With the Increased
Federal Medical Assistance Percentage Under the American Recovery and Reinvestment Act of
2009. We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact James Korn, Audit Manager, at (303) 844-7153 or through email at
James.Korn@oig.hhs.gov. Please refer to report number A-07-09-02767 in all correspondence.

                                                    Sincerely,



                                                    /Patrick J. Cogley/
                                                    Regional Inspector General
                                                      for Audit Services


Enclosure
Page 2 – Ms. Joan Henneberry


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicaid & Medicare Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 REVIEW OF COLORADO’S CLAIMS
ASSOCIATED WITH THE INCREASED
 FEDERAL MEDICAL ASSISTANCE
    PERCENTAGE UNDER THE
   AMERICAN RECOVERY AND
  REINVESTMENT ACT OF 2009




                      Daniel R. Levinson
                       Inspector General

                         March 2010
                        A-07-09-02767
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Colorado, the Department of Health Care
Policy and Financing (State agency) administers the Medicaid program, which includes
developing and maintaining internal controls.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provides, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act provides an
estimated $87 billion in additional Medicaid funding based on temporary increases in States’
Federal medical assistance percentage (FMAP). The Federal Government pays its share of a
State’s medical assistance expenditures under Medicaid based on the FMAP, which varies
depending on that State’s relative per capita income.

The Department of Health & Human Services, Office of Assistant Secretary for Planning and
Evaluation (ASPE), calculates the increased FMAP on a quarterly basis for the 50 States and the
District of Columbia. ASPE provides these increased FMAPs to CMS, which uses them to
determine the amount of Federal funds to award to the States through its Medicaid grant process.
In a previous audit, we reviewed the ASPE FMAP calculations (Review of the Calculations of
Temporary Increases in Federal Medical Assistance Percentages Under the American Recovery
and Reinvestment Act, A-09-09-00075) and determined that ASPE calculated the increased
FMAPs for the first and second quarters of Federal fiscal year (FY) 2009 for all 50 States and the
District of Columbia in accordance with applicable provisions of the Recovery Act. In another
audit, we reviewed CMS’s calculation for the additional FMAP Medicaid funding (Review of the
Calculation of Additional Medicaid Funding Awarded Under the American Recovery and
Reinvestment Act, A-09-09-00080) and determined that, for the first two quarters of FY 2009,
CMS had calculated the additional Medicaid funding awarded under the Recovery Act in
accordance with Federal law.

The amount to be claimed for the temporary increase in FMAP is not based on total Medicaid
expenditures. Section 5001(e) of the Recovery Act lists the Medicaid expenditures that do not
qualify for the temporarily increased FMAP: disproportionate share hospital payments,
Children’s Health Insurance Program expenditures, expenditures subject to an enhanced FMAP
described in § 2105(b) of the Social Security Act, and some Temporary Assistance to Needy
Families expenditures; expenditures for individuals made eligible through income eligibility
expansions after July 1, 2008; and expenditures not based on the FMAP. Furthermore, section
5001(f)(5) of the Recovery Act states that no increase in a State’s FMAP may result in an FMAP



                                                i
that exceeds 100 percent. For the first and second quarters of FY 2009, the State agency’s
regular FMAP rate was 50.00 percent, and the temporarily increased FMAP rate was 58.78
percent.

The State agency claimed medical assistance payments of approximately $997 million for
Federal reimbursement on its standard Forms CMS-64, Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program for the period of October 1, 2008, through
March 31, 2009. Recovery Act funds of approximately $142 million were included in this
reimbursement.

OBJECTIVES

Our objectives were to determine whether the State agency’s $142 million in claims associated
with the temporarily increased FMAP was computed using the Medicaid expenditure base
specified in the Recovery Act and whether the expenditures were supported by the State
agency’s accounting records.

SUMMARY OF FINDING

The State agency’s $142 million in claims associated with the temporarily increased FMAP was
computed using the Medicaid expenditure base specified in the Recovery Act, and the
expenditures were supported by the State agency’s accounting records. In addition, the State
agency had policies and procedures in place to segregate Medicaid expenditures that qualified
for the temporarily increased FMAP and to ensure that those Medicaid expenditures that did not
qualify were not being claimed for reimbursement at the temporarily increased FMAP.

However, the State agency had not documented all of these policies and procedures intended to
ensure that its claims were computed on Medicaid expenditures that qualified for the temporarily
increased FMAP under the provisions of the Recovery Act. Documenting policies and
procedures would increase the likelihood that future claims for Recovery Act funds would
qualify and be supported by accounting records.

A State agency official stated that the primary reason the policies and procedures had not been
documented was that the State agency had not had sufficient time to do so. The official added
that the State agency was also awaiting additional guidance from CMS.

RECOMMENDATION

We recommend that the State agency document all of its policies and procedures for claiming the
temporary increase in FMAP.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially concurred with our
recommendation because, it said, a number of policies and procedures were in place or in draft
form at the time of the audit. The State agency added that it is currently working on reviewing



                                                ii
current policies and procedures for reporting expenditures that qualify for increased FMAP and
is updating these policies and procedures when necessary. The State agency’s comments are
included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

While we acknowledge that the State agency had a number of policies and procedures in place or
in draft form at the time of our audit, all written policies and procedures for claiming the
temporary increase in FMAP were not finalized. Therefore, we maintain that our
recommendation remains valid.




                                               iii
                                                    TABLE OF CONTENTS

                                                                                                                                 Page

INTRODUCTION..............................................................................................................1

      BACKGROUND ..........................................................................................................1
        Medicaid Program....................................................................................................1
        American Recovery and Reinvestment Act of 2009................................................1

      OBJECTIVES, SCOPE, AND METHODOLOGY......................................................2
        Objectives ................................................................................................................2
        Scope........................................................................................................................2
        Methodology ............................................................................................................3

FINDING AND RECOMMENDATION.........................................................................4

      FEDERAL GUIDANCE ..............................................................................................4

      POLICIES AND PROCEDURES ................................................................................4

      RECOMMENDATION................................................................................................5

      STATE AGENCY COMMENTS.................................................................................5

      OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................5

APPENDIX

     STATE AGENCY COMMENTS




                                                                      iv
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase
FMAPs at any time.

States report Medicaid expenditures to CMS on the Form CMS-64, Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program (CMS-64).

In Colorado, the Department of Health Care Policy and Financing (State agency) administers the
Medicaid program, which includes developing and maintaining internal controls.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provides, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act provides an
estimated $87 billion in additional Medicaid funding based on temporary increases in States’
FMAPs. Section 5000 of the Recovery Act provides these increases to help avert cuts in health
care provider payment rates, benefits, or services and to prevent changes in income eligibility
requirements that would reduce the number of individuals eligible for Medicaid. For the first
two quarters of Federal fiscal year (FY) 2009, CMS made available to States, beginning
February 25, 2009, approximately $16 billion in additional Medicaid funding based on the
increased FMAP for each State. Since then, CMS has provided guidance to State Medicaid
agencies (in the form of letters to State Medicaid directors) regarding implementation of the
provisions of the Recovery Act, including provisions for the temporarily increased FMAP.

The Department of Health & Human Services, Office of Assistant Secretary for Planning and
Evaluation (ASPE), calculates the increased FMAP on a quarterly basis for the 50 States and the
District of Columbia. ASPE provides these increased FMAPs to CMS, which uses them to
determine the amount of Federal funds to award to the States through its Medicaid grant



                                               1
process. In a previous audit, we reviewed the ASPE FMAP calculations (Review of the
Calculations of Temporary Increases in Federal Medical Assistance Percentages Under the
American Recovery and Reinvestment Act, A-09-09-00075) and determined that ASPE
calculated the increased FMAPs for the first and second quarters of FY 2009 for all 50 States and
the District of Columbia in accordance with applicable provisions of the Recovery Act. In
another audit, we reviewed CMS’s calculation for the additional FMAP Medicaid funding
(Review of the Calculation of Additional Medicaid Funding Awarded Under the American
Recovery and Reinvestment Act, A-09-09-00080) and determined that, for the first two quarters
of FY 2009, CMS had calculated the additional Medicaid funding awarded under the Recovery
Act in accordance with Federal law.

The amount to be claimed for the temporary increase in FMAP is not based on total Medicaid
expenditures. Section 5001(e) of the Recovery Act lists the Medicaid expenditures that do not
qualify for the temporarily increased FMAP: disproportionate share hospital payments,
Children’s Health Insurance Program expenditures, expenditures subject to an enhanced FMAP
described in § 2105(b) of the Act, and some Temporary Assistance to Needy Families
expenditures; expenditures for individuals made eligible through income eligibility expansions
after July 1, 2008; and expenditures not based on the FMAP.

Pursuant to section 5001(f)(5) of the Recovery Act, no increase in a State’s FMAP may result in
an FMAP that exceeds 100 percent. For the first and second quarters of FY 2009, the State
agency’s regular FMAP rate was 50.00 percent, and the temporarily increased FMAP rate was
58.78 percent.

The State agency claimed medical assistance payments of approximately $997 million for
Federal reimbursement on its CMS-64s for the period of October 1, 2008, through
March 31, 2009. Recovery Act funds of approximately $142 million were included in this
reimbursement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency’s $142 million in claims associated
with the temporarily increased FMAP was computed using the Medicaid expenditure base
specified in the Recovery Act and whether the expenditures were supported by the State
agency’s accounting records.

Scope

We reviewed the amount claimed on the CMS-64s for the first two quarters of FY 2009
(October 1, 2008, through March 31, 2009). We reviewed the State agency’s internal controls to
the extent necessary to accomplish our objective.

We did not audit expenditures made by the State agency during this period to assure that they
qualified for Federal Medicaid reimbursement.



                                               2
We performed fieldwork at the State agency’s offices in Denver, Colorado, in August 2009.

Methodology

To accomplish our objectives, we:

       reviewed applicable Federal laws and regulations and CMS guidance;

       reviewed the State agency’s policies and procedures for segregating the Medicaid
        expenditures that qualified for the temporarily increased FMAP from those that did not;

       reviewed the State agency’s State Medicaid plan;

       reviewed Colorado’s FY 2008 A-133 audit 1 and interviewed personnel in the Colorado
        State Auditor’s Office for insight on possible internal control weaknesses found during
        that office’s review of the State agency;

       interviewed State agency personnel in charge of compiling the CMS-64s to understand
        the procedures used to calculate the reported Medicaid expenditures;

       identified the Medicaid expenditures that did and did not qualify for the temporarily
        increased FMAP, as reported on the CMS-64s for the first two quarters of FY 2009;

       traced selected Medicaid expenditure line item amounts (both those that qualified for the
        temporarily increased FMAP and those that did not qualify) as reported on the CMS-64s
        to the high-level accounting records and supporting documentation; and

       discussed our finding with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.




1
 The Office of Management and Budget (OMB) issued Circular A-133, Audits of States, Local Governments, and
Non-Profit Organizations, pursuant to the Single Audit Act of 1984, P.L. 98-502, and the Single Audit Act
Amendments of 1996, P.L. 104-156, to set forth standards for obtaining consistency and uniformity among Federal
agencies for the audit of States, local governments, and nonprofit organizations expending Federal awards. A single
audit requires an audit of the State’s financial statements and expenditures of Federal awards.



                                                         3
                           FINDING AND RECOMMENDATION

The State agency’s $142 million in claims associated with the temporarily increased FMAP was
computed using the Medicaid expenditure base specified in the Recovery Act, and the
expenditures were supported by the State agency’s accounting records. In addition, the State
agency had policies and procedures in place to segregate Medicaid expenditures that qualified
for the temporarily increased FMAP and to ensure that those Medicaid expenditures that did not
qualify were not being claimed for reimbursement at the temporarily increased FMAP.

However, the State agency had not documented all of these policies and procedures intended to
ensure that its claims were computed on Medicaid expenditures that qualified for the temporarily
increased FMAP under the provisions of the Recovery Act. Documenting policies and
procedures would increase the likelihood that future claims for Recovery Act funds would
qualify and be supported by accounting records.

A State agency official stated that the primary reason the policies and procedures had not been
documented was that the State agency had not had sufficient time to do so. The official added
that the State agency was also awaiting additional guidance from CMS.

FEDERAL GUIDANCE

OMB Circular A-87, Attachment A, § A.2.a.(1) states: “Governmental units are responsible for
the efficient and effective administration of Federal awards through the application of sound
management practices.”

The General Accounting Office’s Standards for Internal Control in the Federal Government
identifies sound management practices that can be applied by non-Federal entities. It states (in
“Control Activities,” page 11): “Internal control activities help ensure that management’s
directives are carried out” and (in “Examples of Control Activities,” page 15): “Internal control
… and other significant events need to be clearly documented, and the documentation should be
readily available for examination. The documentation should appear in management directives,
administrative policies, or operating manuals ….”

POLICIES AND PROCEDURES

For the first two quarters of FY 2009, the State agency computed its Medicaid claims of
$142 million associated with temporarily increased FMAP using the Medicaid base specified in
the Recovery Act and had records to support its claims. The State agency did so by segregating
the Medicaid expenditures that qualified for the temporarily increased FMAP and by ensuring
that those Medicaid expenditures that did not qualify were not being claimed for reimbursement
at the temporarily increased FMAP.

Although the State agency had developed and implemented policies and procedures as part of its
internal controls to ensure that it claimed only Medicaid expenditures that qualified for the
temporarily increased FMAP under the provisions of the Recovery Act, all of these policies and
procedures had not been documented.



                                                4
Documenting policies and procedures would increase the likelihood that future claims for
Recovery Act funds would qualify and be supported by accounting records. Documenting
operational policies and procedures helps ensure that operations are performed effectively and
efficiently by eliminating oversights, giving new personnel sufficiently detailed instructions,
assuring continuity, and specifying quality assurance functions.

A State agency official stated that the primary reason the policies and procedures had not been
documented was that the State agency had not had sufficient time to do so. The official added
that the State agency was also awaiting additional guidance from CMS.

RECOMMENDATION

We recommend that the State agency document all of its policies and procedures for claiming the
temporary increase in FMAP.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially concurred with our
recommendation because, it said, a number of policies and procedures were in place or in draft
form at the time of the audit. The State agency added that it is currently working on reviewing
current policies and procedures for reporting expenditures that qualify for increased FMAP and
is updating these policies and procedures when necessary. The State agency’s comments are
included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

While we acknowledge that the State agency had a number of policies and procedures in place or
in draft form at the time of our audit, all written policies and procedures for claiming the
temporary increase in FMAP were not finalized. Therefore, we maintain that our
recommendation remains valid.




                                                5
APPENDIX
                                                                                                                                                    Page 1 0[2


                        APPENDIX: STATE AGENCY COMMENTS 





                       COLORADO DEPARTMENT OF HEALTH CARE POLICY & FINANCING
                       1570 Grant Street, Denver, CO 80203· 1818 • (303) 866-2993 ' (303) 866-4411 Fax. (303) 866-3883 TTY
                        Bill Ritter, Jr., Governor ' Joan Henneberry, Exe<:utive Director




   February 2, 20 I 0




   Mr. Jim Korn
   Dept. of Health & Human Services
   Office of Inspector General

   Aud it Identification Number: CIN A-07-09-02767

   Dear Mr Korn:

   Please find attached the Department of Health Care Policy and Financing's response to
   the draft review of Colorado C laims Associated with the Increased Federal Medical
   Assistance Percentage report.

   If yo u have any questions or concerns, please contact me at (303) 866-2590 or
   laurie.simon@state.co. us.

    Sincerely,




   Laure Simon
   Audit Coord inator




"The mission of the Depa rtmen t of Health Care Policy & Financ:ing is 10 improve access 10 cosl-effecti"e, quality health care services for Colorad""sH
                                                                 htlp;l/www chcpi.srare (n ....s
                                                                                            Page 20f2




       Department of Health Care Policy and Financing's Response \0 Draft Report 

                           Office of the Inspector General's 

                   Review of Colorado's Claims Associated with the 

                   Increased Federal Medical Assistance Percentage 

         Under the American Recovery and Reinvestment Act (A-07-09-02767) 

                                   December 2009


Recommend ation #1: We recommend thaI th e Stale age ncy document ils policies
a nd proced ures ror claiming tbe tempora ry inc rease in FMAP.

The Department of Heallh Care Policy and Financing's response /0 Recommcndalion #1 :

Parlially ConClir.

The Deparlmem parlially concllrs because a numher of poliCies and procedures were in
place or in draji form 0/ lhe lime Ihis (writ was conducted and Ihe lest work was
concluded These poliCies and procedures included Ihe Depor/menl 's documented
responses ta the five al/estations related 10 the Department's acceptance ofthe increased
Federal Medical Assistance Percentage (FMAP) provided by the American Recovery and
Reinvestment Act (ARRA) and the drmving ofsllchfimds from the Payment Management
System sllb account, an Office of the State Controller ,Uerl /I 184 regarding the coding
requirements established on a statewide basis for ARRA monies, and a draft of the
Departmellf 'S poliCies and procedures related to the recording of expenditllres an the
CMS-64, including expenditures that qllalifiedfor increased FMAP provided by ARRA ,

The Deportment is currently working on reviewing its current policies and procedllreS for
reporting expenditures on the CMS-64, inclllding expenditures that qualify for increased
FMAP provided by ARRA, and are updating those policies and procedures when
necessary,




                                         1 of 1
